No. 19-414
In the

Supreme Court of the United States
Medtronic, Inc.,
Petitioner,
v.
Mark A. Barry, M.D.,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
MOTION FOR LEAVE TO FILE AND BRIEF OF
THE R STREET INSTITUTE AS AMICUS CURIAE
IN SUPPORT OF THE PETITION
Christopher Bavitz
Cyberlaw Clinic, Harvard
Law School
Wasserstein Hall, Ste. WCC 5018
1585 Massachusetts Ave.
Cambridge, MA 02138
(617) 394-9125
cbavitz@law.harvard.edu

Charles Duan
Counsel of Record
R Street Institute
1212 New York Ave. NW Ste. 900
Washington DC 20005
(202) 525-5717
cduan@rstreet.org

Counsel for amicus curiae

MOTION FOR LEAVE TO FILE
The R Street Institute moves pursuant to Supreme
Court Rule 37.2(b) to file a brief as amicus curiae in support of this petition for certiorari. Petitioner Medtronic,
Inc. consents to the filing; Respondent does not consent
but will not oppose this motion. Both parties received notice of intention to file this brief at least 10 days prior to
the due date of this brief.
Movant is a nonprofit public interest organization that
produces research in the fields of technology and intellectual property policy. The nature of Movant’s interest (explained in detail in the Interest of Amicus section of the
brief) is to engage in policy research and educational outreach on issues including intellectual property law. Previous briefs of Movant have been relied upon and cited in
opinions of this Court and the courts of appeals.
The petition for certiorari presents two questions
of great national importance relating to the validity of
patents filed after technology has been in use for an
extended period. The purpose of the present brief is
to demonstrate the broad importance of resolving these
questions, especially to ongoing public policy concerns
over high drug prices and access to medical treatments,
which the present case directly implicates.
Accordingly, the tendered brief offers useful information about the larger effect of the questions presented and
the importance of granting certiorari to review that rule,
which will assist this Court in evaluating whether the petition merits review on a writ of certiorari. The motion
for leave to file the brief should be granted.
Respectfully submitted,
Charles Duan
Counsel for Movant
(i)

TABLE OF CONTENTS
MOTION FOR LEAVE TO FILE . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . iii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

The Federal Circuit’s Erroneous Rules Will Exacerbate an Already Problematic Situation of Medical
Treatment Costs . . . . . . . . . . . . . . . . . . . . . . 4
A. The United States Is Currently Suffering a Crisis of High Drug Prices, in Large Part Due to
Pharmaceutical Patents . . . . . . . . . . . . . . . 4
B.

Drugmakers Are Demonstrably Willing to Exploit Any Available Avenues to Extend the
Term of Patent Protection . . . . . . . . . . . . . . 7

II. The Statutory Bars of § 102 Are Intended to Prevent Improper Extensions of Patent Term . . . . . . . 11
III. Left Uncorrected, the Federal Circuit’s Rules Will
Enable Unwarranted Extensions of Patent Term . . . 13
A. The “Intended Purpose” Requirement Enables
Extended Drug Patents Contrary to Congressional Intent . . . . . . . . . . . . . . . . . . . . . . 13
B.

Shifting the Burden of Proof for Experimental
Use Will Prevent Invalidation of Improperly
Filed Medical Treatment Patents . . . . . . . . . . 15

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . 18

(ii)

TABLE OF AUTHORITIES
Cases
Eli Lilly & Co. v. Medtronic, Inc.,
496 U.S. 661 (1990) . . . . . . . . . . . . . . . . . . . . . . 16
Elizabeth v. Pavement Co.,
97 U.S. 126 (1878) . . . . . . . . . . . . . . . . . . . . 12, 16
Esoterix Genetic Laboratories LLC v. Qiagen Inc.,
133 F. Supp. 3d 349 (D. Mass. 2015) . . . . . . . . . . . . 10
Frantz Manufacturing Co.
v. Phenix Manufacturing Co.,
457 F.2d 314 (7th Cir. 1972) . . . . . . . . . . . . . . . . . 12
Helsinn Healthcare S.A. v. Teva Pharmaceuticals USA,
Inc.,
139 S. Ct. 628 (2019) . . . . . . . . . . . . . . . . . . . . . 9
Hikma Pharmaceuticals USA Inc.
v. Vanda Pharmaceuticals Inc.,
No. 18-817 (U.S. petition filed Dec. 27, 2018) . . . . . . . 10
Kendall v. Winsor,
62 U.S. (21 How.) 322 (1859) . . . . . . . . . . . . . . . . 12
Mayo Collaborative Services
v. Prometheus Laboratories, Inc.,
566 U.S. 66 (2012) . . . . . . . . . . . . . . . . . . . . . . 10
Merck KGaA v. Integra Lifesciences I, Ltd.,
545 U.S. 193 (2005) . . . . . . . . . . . . . . . . . . . . . . 15
Metallizing Engineering Co. v. Kenyon Bearing & Auto
Parts Co.,
153 F.2d 516 (2d Cir. 1946) . . . . . . . . . . . . . . . . . 12
Pennock v. Dialogue,
27 U.S. (2 Pet.) 1 (1829) . . . . . . . . . . . . . . . . . . . 12

(iii)

(iv)
Pfaff v. Wells Electronics, Inc.,
525 U.S. 55 (1998) . . . . . . . . . . . . . . . . . . . . 12, 16
Vanda Pharmaceuticals Inc.
v. West-Ward Pharmaceuticals International Ltd.,
887 F.3d 1117 (Fed. Cir. 2018) . . . . . . . . . . . . . . . 10
Constitutional Provision
U.S. Const. art. I, § 8, cl. 8 . . . . . . . . . . . . . . . . . . . 17
Statutes and Regulation
21 C.F.R. § 20.61(c) . . . . . . . . . . . . . . . . . . . . . . . 16
35 U.S.C. § 101 . . . . . . . . . . . . . . . . . . . . . . . . . . 10
——— § 102 . . . . . . . . . . . . . . . . . . . 2, 9–13, 15–16
——— § 102(a)(1) . . . . . . . . . . . . . . . . . . . . . . . 11
——— § 102(b)(1) . . . . . . . . . . . . . . . . . . . . . . . 11
——— § 154(a)(2) . . . . . . . . . . . . . . . . . . . . . . . 11
——— § 156 . . . . . . . . . . . . . . . . . . . . . . . . . . 15
——— § 156(a) . . . . . . . . . . . . . . . . . . . . . . . . 14
——— § 156(c)(2) . . . . . . . . . . . . . . . . . . . . . . . 15
——— § 156(c)(3) . . . . . . . . . . . . . . . . . . . . . . . 15
——— § 156(g)(6)(A) . . . . . . . . . . . . . . . . . . . . . 15
Drug Price Competition and Patent Term Restoration
Act (Hatch–Waxman), Pub. L. No. 98-417, 98 Stat.
1585 (1984) . . . . . . . . . . . . . . . . . . . . . . . . 14–15
Patent Act of 1836, ch. 357, 5 Stat. 117 . . . . . . . . . . . . 12

(v)
Other Sources
Ass’n for Accessible Meds., Ensuring the Future of
Accessible Medicines in the U.S. (2018), https://
accessiblemeds.org/sites/default/files/2018-02/AAMWhitepaper-Ensuring-Future-of-Generic-Medicines.
pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Hannah Brennan et al., A Prescription for Excessive
Drug Pricing: Leveraging Government Patent Use
for Health, 18 Yale J.L. & Tech. 275 (2016) . . . . . . . . 6
Brief for the Petitioner, Helsinn Healthcare S.A. v. Teva
Pharm. USA, Inc., 139 S. Ct. 628 (Aug. 23, 2018)
(No. 17-1229) . . . . . . . . . . . . . . . . . . . . . . . . . 9
Brief of the Biotechnology Innovation Organization as
Amicus Curiae, Helsinn Healthcare S.A. v. Teva
Pharm. USA, Inc., 139 S. Ct. 628 (Aug. 30, 2018)
(No. 17-1229) . . . . . . . . . . . . . . . . . . . . . . . . . 9
Ctr. for Drug Evaluation & Research, Generic Competition and Drug Prices, U.S. Food & Drug Admin.
(Nov. 20, 2017), https://www.fda.gov/about-fda/
center-drug-evaluation-and-research-cder/genericcompetition-and-drug-prices . . . . . . . . . . . . . . . . 5
Juliette Cubanski & Tricia Neuman, Assessing Drug
Price Increases in Medicare Part D and the Implications of Inflation Limits, Henry J. Kaiser
Fam. Found. (Oct. 2019), https://www.kff.org/
medicare/issue-brief/assessing-drug-price-increasesin-medicare-part-d-and-the-implications-of-inflationlimits/ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

(vi)
Michael Drummond et al., Economic Evaluation of
Medical Devices, Oxford Res. Encyclopedia: Econ. &
Fin. (Mar. 28, 2018), https://oxfordre.com/economics/
economics/view/10.1093/acrefore/9780190625979.001.
0001/acrefore-9780190625979-e-105 . . . . . . . . . . . . 17
Richard G. Frank & David S. Salkever, Generic Entry
and the Pricing of Pharmaceuticals, 6 J. Econ. Mgmt.
Strategy 75 (1997) . . . . . . . . . . . . . . . . . . . . . . 6
Jeanne C. Fromer, Patent Disclosure, 94 Iowa L. Rev.
539 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Abby Goodnough, Pelosi’s Drug Plan Would Let U.S.
Negotiate Prices of 250 Medications, N.Y. Times,
Sept. 19, 2019, A18, https://www.nytimes.com/2019/
09/19/us/politics/pelosi-drug-prices.html . . . . . . . . . 5
Qiuping Gu et al., Nat’l Ctr. for Health Statistics, Ctrs.
for Disease Control & Prevention, NCHS Data
Brief No. 177, Prescription Cholesterol-Lowering
Medication Use in Adults Aged 40 and Over: United
States, 2003–2012 (Dec. 2014), https://www.cdc.gov/
nchs/data/databriefs/db177.pdf . . . . . . . . . . . . . . 7
Inst. for Clinical & Econ. Review, Unsupported Price
Increase Report: 2019 Assessment (Oct. 8, 2019),
https://icer-review.org/wp-content/uploads/2019/
01/ICER_UPI_Final_Report_and_Assessment_
100819_Final.pdf . . . . . . . . . . . . . . . . . . . . . . . 7
Gregory H. Jones et al., Strategies That Delay or Prevent
the Timely Availability of Affordable Generic Drugs
in the United States, 127 Blood 1398 (2016) . . . . . . 8–9

(vii)
Ashley Kirzinger et al., KFF Health Tracking Poll—
February 2019: Prescription Drugs, Henry J. Kaiser
Fam. Found. (Mar. 1, 2019), https://www.kff.org/
health-costs/poll-finding/kff-health-tracking-pollfebruary-2019-prescription-drugs/ . . . . . . . . . . . . 4
Edmund W. Kitch, The Nature and Function of the
Patent System, 20 J.L. & Econ. 265 (1977) . . . . . . . . 9
Peter Loftus & Denise Roland, By Adding Patents,
Drugmaker Keeps Cheaper Humira Copies Out of
U.S., Wall St. J. (Oct. 16, 2018), https://www.wsj.com/
articles/biosimilar-humira-goes-on-sale-in-europewidening-gap-with-u-s-1539687603 . . . . . . . . . . . . 8
W. Nicholson Price II, Expired Patents, Trade Secrets,
and Stymied Competition, 92 Notre Dame L. Rev.
1611 (2017) . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Rachel Roubein & David Brown, Politico–Harvard Poll:
New Congress Should Fight Hate Crimes, Tackle
Drug Prices, Politico (Jan. 3, 2019), https://www.
politico.com/story/2019/01/03/politico-harvard-pollhate-crimes-drug-prices-1077879 . . . . . . . . . . . . . 5
Meera Viswanathan et al., Interventions to Improve
Adherence to Self-Administered Medications for
Chronic Diseases in the United States, 157 Annals
Internal Med. 785 (2012) . . . . . . . . . . . . . . . . . . 6

In the Supreme Court of the United States
No. 19-414
Medtronic, Inc.,
Petitioner,
v.
Mark A. Barry, M.D.,
Respondent.
MOTION FOR LEAVE TO FILE AND BRIEF
OF THE R STREET INSTITUTE AS AMICUS
CURIAE IN SUPPORT OF THE PETITION

INTEREST OF AMICUS CURIAE
The R Street Institute1 is a nonprofit, nonpartisan
public-policy research organization. R Street’s mission
is to engage in policy research and educational outreach
that promotes free markets as well as limited yet effective government, including properly calibrated legal and
regulatory frameworks that support economic growth
and individual liberty.
1

This brief is being tendered with a motion for leave to file this
brief. Pursuant to Rule 37.6, no counsel for a party authored this
brief in whole or in part, and no counsel or party made a monetary
contribution intended to fund the preparation or submission of the
brief. No person or entity, other than amicus, its members, or its
counsel, made a monetary contribution to the preparation or submission of this brief.

1

SUMMARY OF ARGUMENT
The petition for a writ of certiorari should be granted
because the questions presented are of exceptional importance to the national interest. Aside from upsetting
the balance of the patent system itself, the new rules of
patent law applied by the Federal Circuit in this case enable the possibility of unduly extended patent terms on
drugs and other medical treatments, thereby exacerbating the national crisis of unbridled health care costs.
In reaching its decisions in this case, the Federal Circuit applied two rules of patent law that, as Petitioner
explains, are inconsistent with this Court’s decisions and
those of the other circuit courts. Both questions arise under the statutory bars of 35 U.S.C. § 102, which prohibit
the patenting of inventions placed on sale or in public use
more than a year prior to the filing of a patent application. The appeals court first held that an invention is not
“ready for patenting,” for purposes of invoking the statutory bars, unless it meets an “intended purpose” proffered by the patent holder, even where that purpose is
stated nowhere in the patent text. Second, it considered
the “experimental use” exception to the statutory bars,
and held that the patent owner bears no burden of persuasion as to whether a use was experimental, such that nothing more than uncorroborated inventor testimony could
suffice to overcome the § 102 bar.
Both of these rules of patent law are ripe for exploitation by patent owners and applicants, particularly in the
medical and pharmaceutical industries, who hope to obtain extended patent terms beyond the congressionally
prescribed 20-year period. The Federal Circuit’s narrowing of the § 102 statutory bars in this case could allow
drug and medical device developers to delay applying for
2

3
patents until even after regulatory approval, contrary
both to the express statutory scheme and the policies of
the patent system. Yet by doing so, the patent owners
who avail themselves of these strategies stand to earn
unjustified profits amounting to millions or billions of dollars, at the expense of American health care consumers.
These opportunities to exploit the patent system
could not come at a worse time. Americans are in the
midst of a widely-recognized crisis of rising health care
costs, with elected officials across the political spectrum
agreeing that prescription drug prices need to be reined
in. Yet despite these ongoing and widespread concerns,
history shows that the pharmaceutical industry has made
repeated efforts to extend the length of patent protection
through patent tactics, keeping prices high at the public’s
expense. That the Federal Circuit has opened the door
to exploitation of the health care system through patent
strategy is thus a matter of pressing national concern,
warranting a grant of certiorari.

ARGUMENT
I.

The Federal Circuit’s Erroneous
Rules Will Exacerbate an Already
Problematic Situation of Medical
Treatment Costs

The questions presented are of exceptional importance warranting a grant of certiorari, because they directly implicate one of the most pressing national crises of
our time: the skyrocketing costs of health care. The pharmaceutical industry and others in the medical field have
repeatedly demonstrated their willingness to exploit
rules of patent law that allow for effective extensions
of patent term beyond limits contemplated by Congress,
generating large private profits for themselves but exacerbating the problem of the public costs of health care.
A.

The United States Is Currently
Suffering a Crisis of High Drug Prices,
in Large Part Due to Pharmaceutical
Patents

There is little question that the high cost of medical care is among the most pressing problems facing the
American polity today. A Kaiser Family Foundation survey finds that 8 in 10 Americans call the price of prescription drugs “unreasonable,” a result supported by
the fact that many of the most popular drugs saw price
increases of 3 to 9 times the rate of inflation—“15.7%
for Lyrica, a pain medication, 15.3% for Revlimid, a cancer medication, and 13.2% for Humira Pen, for rheumatoid arthritis” between 2016 and 2017. Ashley Kirzinger
et al., KFF Health Tracking Poll—February 2019: Prescription Drugs, Henry J. Kaiser Fam. Found. (Mar. 1,
4

5
2019), available online;2 Juliette Cubanski & Tricia Neuman, Assessing Drug Price Increases in Medicare Part
D and the Implications of Inflation Limits, Henry J.
Kaiser Fam. Found. 2 (Oct. 2019), available online. An
overwhelming majority—80% of Americans surveyed—
ranks lowering prescription drug prices as “extremely
important.” Rachel Roubein & David Brown, Politico–
Harvard Poll: New Congress Should Fight Hate Crimes,
Tackle Drug Prices, Politico (Jan. 3, 2019), available online. The White House and key leaders in both the House
and the Senate have all made lowering drug prices a national priority. See Abby Goodnough, Pelosi’s Drug Plan
Would Let U.S. Negotiate Prices of 250 Medications, N.Y.
Times, Sept. 19, 2019, A18, available online.
Pharmaceutical patents are widely understood to be a
key contributor to these high costs, because such patents
prevent entry of competitive generics that impose market discipline on drug prices. The U.S. Food and Drug
Administration finds that the presence of just two generic
manufacturers of a drug cuts prices in half; six or more
and prices drop by over 74%. See Ctr. for Drug Evaluation & Research, Generic Competition and Drug Prices,
U.S. Food & Drug Admin. (Nov. 20, 2017), available online.
The savings are not just monetary: The Association
for Accessible Medicines finds that patients are 62% less
likely to abandon treatment by generic medicines vis à
vis prescription drugs, and abandonment of prescription
treatment in the United States is estimated to cause, annually, about 10% of hospitalizations and 125,000 deaths.
See Ass’n for Accessible Meds., Ensuring the Future
2

Locations of authorities available online are shown in the Table
of Authorities.

6
of Accessible Medicines in the U.S. 5 (2018), available
online; Meera Viswanathan et al., Interventions to Improve Adherence to Self-Administered Medications for
Chronic Diseases in the United States, 157 Annals Internal Med. 785, 785 (2012).
Because patents, being market exclusivities on products such as drugs, prevent competitive generic entry,
they prevent realization of the above benefits and thus
keep prices of medical treatments high. Commentators
report that “the average markup for patented drugs is
nearly 400%” and that “introducing generic competition
can cause prices to fall to as little as 6% of the patentprotected price.” Hannah Brennan et al., A Prescription for Excessive Drug Pricing: Leveraging Government
Patent Use for Health, 18 Yale J.L. & Tech. 275, 284–85
(2016) (citing FDA and other studies); Richard G. Frank
& David S. Salkever, Generic Entry and the Pricing of
Pharmaceuticals, 6 J. Econ. Mgmt. Strategy 75, 83–84 &
tbl.2 (1997) (finding that generic drug prices drop to below
50% of the patent-based price within 3 years of patent expiration).
This is emphatically not to say that patents on pharmaceuticals or other technologies are inherently problematic; the incentive value of patents for promoting research and commercialization is no doubt at its apex in
the medical field. But the massive public costs of health
care in America demand vigilance for misalignments in
interpretations of the patent laws that could exacerbate
this policy crisis of national scope.

7
B.

Drugmakers Are Demonstrably Willing
to Exploit Any Available Avenues to
Extend the Term of Patent Protection

Despite the public harms thus discussed, the medical
and pharmaceutical industries have strong pecuniary interests in exploiting any weaknesses in the patent system to extend their patent terms as far out as possible.
Indeed, history shows those industries’ repeated willingness to take advantage of such loopholes in multiple areas
of patent law.
The extension of a pharmaceutical patent by even just
a short period can represent an alarming cost to Americans but a major profit stream for drugmakers. Patented
drugs can be billion-dollar markets for companies holding
the exclusivities, and industry shows no disinclination to
increase prices to maximize those exclusive markets. See
Inst. for Clinical & Econ. Review, Unsupported Price Increase Report: 2019 Assessment ES2 (Oct. 8, 2019), available online (finding $5.1 billion in price increases “unsupported by new clinical evidence”). Consider, for example, that a month’s supply of Pfizer’s cholesterol-lowering
drug atorvastatin (Lipitor) cost about $165 while under
patent and $15 after the patent expired. See W. Nicholson
Price II, Expired Patents, Trade Secrets, and Stymied
Competition, 92 Notre Dame L. Rev. 1611, 1622 & n.67
(2017). Extending the patent on Lipitor would have represented a wealth transfer from American consumers to
Pfizer of about $41 million per day.3
3

That number is computed as follows: The U.S. Census Bureau
estimates the population of Americans aged 40 and over at 147 million in 2012. The Centers for Disease Control and Prevention reports
that 27.9% of that population used a cholesterol-lowering medication,
and 20.2% of them used atorvastatin. See Qiuping Gu et al., Nat’l

8
The medical treatment industries thus face powerful
incentives to seek out ways to extend their patent protection terms by by building massive estates of patents:
AbbVie, for example, has a “formidable wall” of over
100 patents that extend protection over Humira by two
decades past the original patent on the biologic compound.
See Peter Loftus & Denise Roland, By Adding Patents,
Drugmaker Keeps Cheaper Humira Copies Out of U.S.,
Wall St. J. (Oct. 16, 2018), available online. Pharmaceutical firms also seek to take advantage of the doctrines of
patentability to obtain effective patent term extensions.
In practices variously known as “evergreening,” “product hopping,” and “patent thicketing,” drug companies
will obtain patents on minor modifications to known drug
compounds, often years after the initial patent applications were filed. A “brand name company,” for example,
may attempt “switching the market for a drug, prior to
its patent expiration date, to a reformulated version that
has a later-expiring patent, but which offers little or no
therapeutic advantages.” Gregory H. Jones et al., Strategies That Delay or Prevent the Timely Availability of Affordable Generic Drugs in the United States, 127 Blood
1398, 1399–400 (2016). The most common strategy for
evergreening is for a pharmaceutical company to obtain
patents on methods of using a drug, such as forms of delivery or dosage amounts: “a slightly different tablet or
Ctr. for Health Statistics, Ctrs. for Disease Control & Prevention,
NCHS Data Brief No. 177, Prescription Cholesterol-Lowering Medication Use in Adults Aged 40 and Over: United States, 2003–2012, at
1–2 (Dec. 2014), available online. Thus, 8.29 million Americans used
atorvastatin in 2012. The difference between the on-patent and offpatent daily cost is $5 ($150 per month divided by 30 days), leading
to a nationwide cost of $41.45 million per day.

9
capsule does or a slow-release formulation,” for example.
Id. at 1399.
In other areas of patent law, this Court has repeatedly
rejected rules that would improperly extend the length of
patent protection. Most recently, this Court encountered
an attempt to extend patent term in Helsinn Healthcare
S.A. v. Teva Pharmaceuticals USA, Inc., 139 S. Ct. 628
(2019). There, the owner of a patent on a chemotherapy
nausea treatment sought an interpretation of the on-sale
bar under § 102 that would allow for patents to be filed
after the one-year grace period following the first sale of
the patented drug, so long as the sale was “secret.” See
id. at 630–31. This Court unanimously rejected that interpretation based on the plain text of § 102, but what is
important about Helsinn is the justification for the patent
owner’s late filing: Helsinn and amici from the biopharmaceutical industry asserted that delayed filing was necessary to enable firms to form “business and development
partnerships” to commercialize newly developed medicinal molecules. E.g., Brief of the Biotechnology Innovation Organization as Amicus Curiae at 22, Helsinn, 139
S. Ct. 628 (Aug. 30, 2018) (No. 17-1229); see Brief for the
Petitioner at 48–49, Helsinn, 139 S. Ct. 628 (Aug. 23, 2018)
(No. 17-1229). Yet by congressional design, inventors are
expected to do the work of commercializing inventions
during the patent term, not before it. See Edmund W.
Kitch, The Nature and Function of the Patent System, 20
J.L. & Econ. 265, 271–72 (1977) (discussing patent law incentives to file prior to commercialization). The immense
industry effort to turn this Court away from a plain-text
interpretive result demonstrates the immense financial
incentive of extended patent terms.

10
Even this Court’s recent clarifications of patenteligible subject matter have come to be exploited to extend the term of medical treatment patents. Mayo Collaborative Services v. Prometheus Laboratories, Inc. held
unpatentable the discovery of a natural correlation between a diagnostic test and adjustment of administration
of a drug. See 566 U.S. 66, 87 (2012). Were it otherwise, it
should be fairly obvious that patents on those correlations
would be a prime target for evergreening, since drugmakers could identify correlations years after patenting the
original drug and obtain further later-expiring patents.
And indeed, pharmaceutical patent owners have repeatedly tried to skirt around Mayo, in some cases successfully, in order to broaden and preserve their patent monopolies over drugs and medical treatments. See, e.g.,
Vanda Pharm. Inc. v. W.-Ward Pharm. Int’l Ltd., 887
F.3d 1117, 1120–21 (Fed. Cir. 2018) (disputing under 35
U.S.C. § 101 a method-of-use patent that would extend
patent protection by 11 years), petition for cert. filed sub
nom. Hikma Pharm. USA Inc. v. Vanda Pharm. Inc.,
No. 18-817 (U.S. petition filed Dec. 27, 2018); Esoterix
Genetic Labs. LLC v. Qiagen Inc., 133 F. Supp. 3d 349
(D. Mass. 2015) (rejecting under Mayo a patent directed
to a “correlation between a naturally-occurring mutation
in a cancer cell, and the likelihood that a particular type
of known pharmaceutical compound will be effective in
treating that type of cancer”).
As the present case demonstrates, the pharmaceutical and medical treatment industries are willing to push
the patent laws to their limits to extend patent protection as long as possible, contrary to the statutory design
of the patent laws and the § 102 bars in particular. That
pushing of the boundaries injures the public interest both

11
in a balanced patent system and in affordable health care.
It is a matter of exceptional importance for this Court to
ensure that the patent laws are correctly interpreted to
avoid such exploitation.
II.

The Statutory Bars of § 102 Are Intended to Prevent Improper Extensions
of Patent Term

By design, the Patent Act balances the interests of
patent protection against the aforementioned harm to the
public of excessively long patents. It does so specifically
through the on-sale and public-use bars on patenting under § 102.
Patent term is determined based on the date on which
the patent application was filed. See § 154(a)(2). Thus,
a later-filed patent will be a later-expiring one, enabling
the holder of that patent to reap profits at the tail end
of the patent term for a longer period of time. To be
sure, the later-filed patent’s enforcement period will start
later, but nothing prevents filing for two or more patents,
one early and one late, effectively providing a longer total term of patent protection than the Patent Act contemplates.
The statutory bars under § 102 are intended to curb
this possibility by requiring patent applications to be filed
early. Specifically, § 102 provides that where an invention is “in public use, on sale, or otherwise available to
the public,” the inventor has at most one year to file for
patent protection. § 102(a)(1); see § 102(b)(1).
It has long been recognized that these statutory oneyear limits reflect congressional intent to place limits on
effective patent term. As early as 1829, this Court explained an inventor was not permitted to “for a long pe-

12
riod of years retain the monopoly, and make, and sell
his invention publicly,” only later seeking a patent on
the invention; to allow for such behavior “would materially retard the progress of science and the useful
arts.” Pennock v. Dialogue, 27 U.S. (2 Pet.) 1, 19 (1829).
Congress soon after codified the holding of Pennock. See
Patent Act of 1836, ch. 357, § 6, 5 Stat. 117.
Subsequently, courts have reiterated concern about
undue extensions of patent term in applying the statutory bars. Elizabeth v. Pavement Co. explained that “an
inventor acquires an undue advantage over the public by
delaying to take out a patent, inasmuch as he thereby preserves the monopoly to himself for a longer period than is
allowed by the policy of the law.” 97 U.S. 126, 137 (1878).
An inventor who, “for his own profit, withholds his invention from the public, comes not within the policy or objects of the Constitution or acts of Congress.” Kendall v.
Winsor, 62 U.S. (21 How.) 322, 328 (1859).
More recent decisions have identified concern about
undue patent extension as the explicit purpose behind
§ 102. In Pfaff v. Wells Electronics, Inc., this Court
explained that the statutory bars serve the purpose of
“confining the duration of the monopoly to the statutory term.” 525 U.S. 55, 64 (1998) (citing Frantz Mfg.
Co. v. Phenix Mfg. Co., 457 F.2d 314, 320 (7th Cir. 1972)).
Judge Learned Hand similarly wrote, in the seminal case
Metallizing Engineering Co. v. Kenyon Bearing & Auto
Parts Co., that the statutory bars ensure that an inventor “does not thereby extend the period of his monopoly.”
153 F.2d 516, 520 (2d Cir. 1946).
The recognized purpose of the statutory bars is to prevent undue extensions of the patent term beyond that
provided by Congress. That purpose is essential where

13
extended patent term can impose substantial costs on important sectors of the economy, such as American consumers of health care.
III.

Left Uncorrected, the Federal Circuit’s Rules Will Enable Unwarranted
Extensions of Patent Term

The Federal Circuit’s two determinations in this case,
namely the definition of “ready for patenting” and the
scope of experimental use, are also ripe for exploitation
by patent owners hoping to extend their patents and extract unwarranted monopoly rents from American health
care consumers. As explained below, those patent owners have many ways to do so, indicating the salience of
this case to national health care costs.
A.

The “Intended Purpose” Requirement
Enables Extended Drug Patents
Contrary to Congressional Intent

The Federal Circuit first held that in order for an invention to be “ready for patenting” such that it triggers
the one-year time bar under § 102, the invention must
meet not just the objective elements of the patent claims
but also a subjective “intended purpose” potentially manufactured by the inventor during litigation. If allowed to
stand, this novel intended-purpose element would easily
facilitate extensions of patent term.
The “intended purpose” rule would essentially upend
the congressional scheme for patents in the context of
drug development. To avoid triggering the on-sale and
public use bar, a pharmaceutical company can claim that
all possible benefits of a new compound have not been

14
elucidated in the early stages of testing, and that further forward-looking studies are required to determine
whether a drug works for the “intended purpose,” in particular the studies required for the years-long premarket
approval process by the U.S. Food and Drug Administration. According to the Federal Circuit, this subjective intended purpose does not have to be listed anywhere in
the patent. A company could also argue that follow-up
time is required to determine that the drug creates the
desired effect, despite shorter-term clinical evidence confirming the benefits. Finally, a company could also rely
on its own “after-the-fact testimony” to claim that a wide
variety of early testing was experimental. Creative exploitation of the “intended purpose” rule could thus enable a drug patent applicant to obtain more than the fiveyear additional term that Congress intended.
Besides being contrary to the Patent Act generally
by enabling drugmakers to obtain patents years after
commercial exploitation, the above tactic dismantles a
very specific drug patent statutory scheme. Under the
Drug Price Competition and Patent Term Restoration
Act, commonly known as the Hatch–Waxman Act, the
lengthy pendency of FDA approval is expected to run
during the term of patents on the drug, and Congress provides a credit for that pendency in the form of “patent
term extension” applied to the drug patent. Pub. L.
No. 98-417, § 201(a), 98 Stat. 1585 (1984) (codified as
amended at 35 U.S.C. § 156(a)). Yet Congress did not
provide for full recapture of the regulatory process time:
Recognizing that the patent term is always supposed to
account for a portion of time spent on bringing inventions
to market, Hatch–Waxman extends the patent by only
50% of the testing period of the drug, and the extension

15
is subject to further caps and limitations. See 35 U.S.C.
§ 156(c)(2); see also § 156(c)(3) (14-year total patent term
limit); § 156(g)(6)(A) (5-year maximum extension).
If a drugmaker can delay patenting until after the
testing process on the theory that the drug only satisfied an “intended purpose” and was thus only “ready for
patenting” after approval, then the drugmaker would receive a patent with an effective 100% extension of term—
double what Hatch–Waxman provides, and disregarding
the other caps in § 156. That is a plain circumvention
of a statutory scheme that already provides “wide berth
for the use of patented drugs related to the federal regulatory process.” Merck KGaA v. Integra Lifesciences I,
Ltd., 545 U.S. 193, 202 (2005). There was no need for the
Federal Circuit to have opened a new loophole in this regard, and this Court should grant certiorari to close it.
B.

Shifting the Burden of Proof for
Experimental Use Will Prevent
Invalidation of Improperly Filed
Medical Treatment Patents

Second, the Federal Circuit held that where an inventor argues that the § 102 time bar is not triggered because
an inventor’s use was experimental, the inventor does not
bear the burden of persuasion and can prove experimental use on uncorroborated testimony alone. Left uncorrected, this rule is again ripe for exploitation to the end
of extending patent terms.
For one thing, the nature of drug development means
that experimental use could become a powerful shield for
protecting improper patents. Pharmaceutical companies
may designate information as confidential or a trade secret when they submit it to the FDA, protecting it from

16
disclosure. 21 C.F.R. § 20.61(c). Thus, it may be difficult
for defendants to gain access to the information needed
to prove that the use was not experimental. Since the
patent owner has access to the relevant testing information, relieving the patent owner of the burden of persuasion on experimental use could obscure a legitimate invalidity defense.
The experimental use rule could also enable medical
treatment developers to engage in pre-patent commercialization activity, contrary to the intent of the patent
system. Generally, the experimental use exception to the
§ 102 bars permits experimentation on the merits of an
invention, but not experimentation on the marketability
of the invention, since the latter is a use of the invention
“for a profit” rather than “a bona fide effort to bring his invention to perfection.” See Pfaff, 525 U.S. at 64–65 (quoting Elizabeth, 97 U.S. at 137). With drug patents, for example, randomized control tests for safety and efficacy
cleanly fall on the merits-based experimentation side of
the line. But in the context of health care treatments such
as medical devices, where placebos cannot be administered, trial recipients are generally people who would otherwise have bought the device from the treatment developer, meaning that the line between merits testing and
market testing is blurry. See Eli Lilly & Co. v. Medtronic,
Inc., 496 U.S. 661, 682 (1990) (Kennedy, J., dissenting).
To the extent that those inventors can avail themselves
of the Federal Circuit’s experimental use rule, they likely
would overgeneralize the merits-based experimental use
to be as long as necessary until they can confidently conclude that the treatment will or will not be profitable.
Besides putting developers of those technologies in a
privileged class with respect to the patent system, a rule

17
that enables patent applicants to hold out experimental
use through the commercialization phase of market testing impinges on the basic patent bargain. Patents are intended to encourage public disclosure of inventions, regardless of whether they turn out to be of commercial
value in the short term, because the incremental nature
of innovation means that even unsuccessful ideas can be
sources of knowledge. See Jeanne C. Fromer, Patent Disclosure, 94 Iowa L. Rev. 539, 590–91 (2009). This is especially important for the development of medical devices,
where a characteristic feature of the field is the incremental nature of innovation. See Michael Drummond et al.,
Economic Evaluation of Medical Devices, Oxford Res.
Encyclopedia: Econ. & Fin. (Mar. 28, 2018), available online. If the experimental use doctrine gave insufficient
incentives to file for patents and thus to disclose new technologies until the inventor deemed them profitable, then
in many cases inventors would fail to reveal inventions
to the public to retain the future possibility of incremental improvement until profitability for themselves. The
result would thus be a failure of the patent laws, under
the Federal Circuit’s reading, to “promote the progress
of science and useful arts.” U.S. Const. art. I, § 8, cl. 8.

CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.

Respectfully submitted,
Charles Duan
Counsel of Record
R Street Institute
1212 New York Ave. NW Ste. 900
Washington DC 20005
(202) 525-5717
cduan@rstreet.org
Christopher Bavitz
Cyberlaw Clinic, Harvard Law
School
Wasserstein Hall, Ste. WCC 5018
1585 Massachusetts Ave.
Cambridge, MA 02138
(617) 394-9125
cbavitz@law.harvard.edu
Counsel for amicus curiae
October 2019

Rev. cdb1bcb4

18

